No. _______.
______________________________________________________________________________
In the
Supreme Court of the United States.
____________________
Assassination Archives and Research Center,
Petitioner,
-vCentral Intelligence Agency,
Respondent.
_____________________
On Petition for Writ of Certiorari to the United States
Court of Appeals for the District of Columbia Circuit
_____________________

APPENDIX
____________________
Daniel S. Alcorn
D.C. Bar No. 383267
Counsel of Record for Petitioner
1335 Ballantrae Lane
McLean, VA 22101
(703)442-0704
dalcorn@rcn.com
James H. Lesar
D.C. Bar No. 114413
Counsel for Petitioner
Law Offices of James Lesar
930 Wayne Avenue, Unit 1111
Silver Spring, Maryland 20910
(301)328-5920
jhlesar@gmail.com

CONTENTS OF APPENDIX

Page No.

Judgment, United States Court of Appeals for the District
of Columbia Circuit, October 11, 2019………………………………….. 1
Order granting in part and denying in part summary affirmance,
February 15, 2019………………………………………………………. 5
Memorandum Opinion, United States District Court for the District
of Columbia, July 17, 2018……………………………………………… 7
Order denying rehearing, United States Court of Appeals
for the District of Columbia Circuit,
December 10, 2019………………………………………………………21
Order denying rehearing en banc, United States Court
of Appeals for the District of Columbia Circuit,
December 10, 2019………………………………………………………20

USCA Case #18-5280

Document #1810465

Filed: 10/11/2019

Page 1 of 4

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

No. 18-5280

October Term, 2019
FILED: OCTOBER 11, 2019

ASSASSINATION ARCHIVES AND RESEARCH CENTER,
APPELLANT
v.
CENTRAL INTELLIGENCE AGENCY,
APPELLEE
Appeal from the United States District Court
for the District of Columbia
(No. 1:17-cv-00160)
Before: PILLARD and RAO, Circuit Judges, and WILLIAMS, Senior Circuit Judge.
JUDGMENT
This appeal was considered on the record and on the briefs and oral arguments of the
parties. After according the issues full consideration, the Court is satisfied that appropriate
disposition of the appeal does not warrant a published opinion. See Fed. R. App. P. 36; D.C. Cir.
R. 36(d). For the reasons stated below, it is hereby
ORDERED and ADJUDGED that the denial of the motion for summary judgment and
grant of the cross-motion for summary judgment be AFFIRMED.
In this Freedom of Information Act (FOIA) case, the Assassination Archives and Research
Center (the Center) appeals an order of the district court denying the Center’s motion for summary
judgment and granting a cross-motion for summary judgment by the Central Intelligence Agency
(CIA). At issue is whether, in response to FOIA requests by the Center, the CIA permissibly
withheld pursuant to FOIA Exemption 5, 5 U.S.C. § 552(b)(5), portions of intra-agency
communications relating to the FOIA process itself.
On August 25, 2012, the Center submitted to the CIA a request for all records “pertaining
to the CIA’s study in 1963 of plots to assassinate Adolph Hitler” or “to communications by Allen
1

1

USCA Case #18-5280

Document #1810465

Filed: 10/11/2019

Page 2 of 4

Dulles regarding plots to assassinate Adolph Hitler” during Dulles’s service in the CIA and a
related office. After the CIA returned a determination that it had no responsive records, the Center
submitted a supplementary request. In addition to somewhat expanding the scope of the previous
request, the Center’s second letter requested “[a]ll index entries or other records reflecting the
search for records responsive to this request in its original or amended form, including all search
[terms] used with each of the components searched.”
As set forth in declarations from CIA Information Review Officer Antoinette Shiner, who
was involved in responding to the Center’s amended FOIA request, CIA staff searched for
responsive records in the files of eight different CIA sub-offices that the agency identified as “the
locations reasonably expected to contain” the requested materials. Shiner Decl. (Jan. 19, 2018) at
2. Those offices were: “the Directorate of Analysis . . . ; Directorate of Operations . . . , including
its operational files; the Office of the Director, the Director’s Action Center, the Office of the
General Counsel, the Office of Congressional Affairs, the Center for the Study of Intelligence
(which is part of the CIA’s Talent Center) and the CIA’s history staff office.” Id. at 2-3. Within
each office, CIA staff searched “all relevant office databases, Agency share drives, and archival
records.” Id. at 3. In carrying out each search, CIA staff used a wide variety of terms, including
but not limited to “Hitler Assassination,” “Hitler Plot,” “1963 assassination study,” and “Dulles
communication Hitler.” Id. at 4-5; Shiner Decl. (Oct. 13, 2017) at 3. Each of those terms was
searched both as a complete phrase and as separate terms. For example, a search for “Hitler
Assassination” would have returned all documents containing that exact phrase as well as all
documents containing both “Hitler” and “assassination” somewhere in its body. Shiner Decl. (Jan.
19, 2018) at 5. Staff then reviewed each document uncovered by the searches and determined
whether it was responsive to the Center’s particular request. Id.
In addition to directing those searches, Shiner also consulted with the CIA’s Chief
Historian, who is “very knowledgeable about the Agency’s holdings with respect to” the subject
matter at issue here. Id. at 3. The Chief Historian “personally conducted searches of history staff
files for any reference to studies of anti-Hitler plots dating from the 1963 time frame,” but did not
uncover any additional responsive documents. Id. at 3-4. The Chief Historian advised that, “due
to the age of the subject matter and narrow scope of [the] request focusing on anti-Hitler plots,
there would not be many responsive documents and anything related to assassination studies would
likely be found at the National Archives.” Id. at 4. Based on our review of the redacted records,
the declarations, and the CIA’s Vaughn index, we granted summary affirmance to the CIA as to
the adequacy of the CIA’s search and the propriety of its application of FOIA Exemptions 1, 3,
and 6, some of which were not contested. Assassination Archives & Research Ctr. v. CIA, No.
18-5280, 2019 WL 691517 (D.C. Cir. Feb. 15, 2019).
The only remaining issue is the permissibility of the Exemption 5 redactions to five records
the CIA produced, which appear to be CIA internal forms used in processing the Center’s FOIA
requests and produced pursuant to the Center’s request for records of the FOIA search process
itself. The Center challenges the CIA’s use of the deliberative privilege on the grounds that the
information at issue is purely factual, reporting what the CIA found in its searches. Oral Arg. Rec.
at 10:39-11:01; Appellant Br. 21-23. The CIA, in turn, argues that the withheld materials would
2

2

USCA Case #18-5280

Document #1810465

Filed: 10/11/2019

Page 3 of 4

reveal the decision-making process behind its final response to the Center’s FOIA request.
Appellee Br. 7-17.
We now hold that the CIA has permissibly invoked Exemption 5. Under FOIA Exemption
5, agencies need not turn over “inter-agency or intra-agency memorandums or letters that would
not be available by law to a party other than an agency in litigation with the agency,” 5 U.S.C.
§ 552(b)(5)—e.g., records protected by the Executive’s deliberative process privilege. See EPA v.
Mink, 410 U.S. 73, 85-90 (1973). The privilege covers information that is both “predecisional”
and “deliberative.” Coastal States Gas Corp. v. Dep’t of Energy, 617 F.2d 854, 866 (D.C. Cir.
1980). Documents are predecisional if they were “generated before the adoption of an agency
policy,” and deliberative if they “reflect[] the give-and-take of the consultative process.” Id.
Here, the CIA invokes Exemption 5 to shield portions of the five internal FOIA task forms
mentioned above. Specifically, the CIA has redacted from each form the substance of the intraagency communication “[a]uthored by [the] Agency component employee tasked with the search”
for the benefit of the agency official directing the CIA’s internal records search. J.A. 217-219,
296-305.
The withheld communications indisputably precede the CIA’s decision to release records
to the Center. In addition, the redacted content “reflects the give-and-take” of a “consultative
process” through which the agency sought to identify records within its possession potentially
responsive to the Center’s requests. Id. 189-90, 354, 357. We have previously held the privilege
applicable to “factual material . . . assembled through an exercise of judgment in extracting
pertinent material from a vast number of documents for the benefit of an official called upon to
take discretionary action,” Mapother v. Dep’t of Justice, 3 F.3d 1533, 1539 (D.C. Cir. 1993), and
we have described a “recommendation to a supervisor on a matter pending before the supervisor”
as “a classic example of a deliberative document,” Abtew v. U.S. Dep’t of Homeland Sec., 808
F.3d 895, 899 (D.C. Cir. 2015). Taken together, the entries in the agency’s Vaughn index, the
declarations, the forms themselves, and the context in which they are used make it sufficiently
apparent that the redacted text describes the efforts of staff “in extracting pertinent material” and
any issues they encountered along the way. In context, it is evident that the redacted matter
amounted to predecisional communications from staff made for the purpose of informing the
agency’s ultimate decision as to what the law required of the Agency in response to the Center’s
FOIA request. See 5 U.S.C. § 552(a).
It suffices that the redactions on the FOIA forms reflect some predecisional agency giveand-take; the Center does not challenge the CIA’s segregation efforts. See Appellant Br.; Appellee
Mot. Summ. Affirmance 4 n.3. We therefore affirm the district court’s grant of summary judgment
to the CIA and denial of summary judgment to the Center on the issue of the CIA’s withholdings
under Exemption 5.
Pursuant to D.C. Circuit Rule 36, this disposition will not be published. The Clerk is
directed to withhold issuance of the mandate herein until seven days after resolution of any timely
petition for rehearing or petition for hearing en banc. See Fed. R. App. P. 41(b); D.C. Cir. R. 41.
3

3

USCA Case #18-5280

Document #1810465

Filed: 10/11/2019

Page 4 of 4

Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Daniel J. Reidy
Deputy Clerk

4

4

USCA Case #18-5280

Document #1773678

Filed: 02/15/2019

Page 1 of 2

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 18-5280

September Term, 2018
1:17-cv-00160-TNM-GMH
Filed On: February 15, 2019

Assassination Archives and Research
Center,
Appellant
v.
Central Intelligence Agency,
Appellee

BEFORE:

Henderson*, Srinivasan, and Millett, Circuit Judges
ORDER

Upon consideration of the motion for summary affirmance, the response thereto,
and the reply, it is
ORDERED that the motion for summary affirmance be granted in part and
denied in part.
The district court correctly concluded that the Central Intelligence Agency’s
search for records in response to appellant’s Freedom of Information Act (“FOIA”)
request was adequate, notwithstanding the fact that the Agency did not use the precise
search terms suggested by appellant and did not locate several records that appellant
expected would be located. See Iturralde v. Comptroller of Currency, 315 F.3d 311,
315 (D.C. Cir. 2003) (“The adequacy of a FOIA search is generally determined not by
the fruits of the search, but by the appropriateness of the methods used to carry out the
search.”).
The district court also correctly concluded that portions of the Propagandist’s
Guide to Communist Dissensions were properly redacted pursuant to FOIA Exemption
1. See 5 U.S.C. § 552(b)(3) (exempting from disclosure materials that are “specifically
authorized under criteria established by an Executive order to be kept secret in the
interest of national defense or foreign policy and are in fact properly classified pursuant
to such Executive order”). The government represents that, pursuant to a 2012

5

USCA Case #18-5280

Document #1773678

Filed: 02/15/2019

Page 2 of 2

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 18-5280

September Term, 2018

Declassification Guide, those portions were not automatically declassified due to their
age. Appellant has provided no reason for this court to question that representation.
See Morley v. CIA, 508 F.3d 1108, 1126 (D.C. Cir. 2007) (noting that this court grants
“special deference” to the government in matters of national security).
Finally, appellant does not refute the district court’s conclusion that the portions
of the remaining responsive records which contain personally identifying information
were properly withheld pursuant to FOIA Exemption 3, by way of the CIA Act, 50 U.S.C.
§ 3507 (exempting the CIA from disclosing any records describing “the organization,
functions, names, official titles, salaries, or numbers of personnel employed by the
[CIA]”). Because the court has concluded that these redactions were justified under
FOIA Exemption 3, it need not consider whether they were also justified under FOIA
Exemption 6.
The merits of the parties' positions as to the foregoing issues are so clear as to
warrant summary action. See Taxpayers Watchdog, Inc. v. Stanley, 819 F.2d 294, 297
(D.C. Cir. 1987) (per curiam).
Summary affirmance is denied as to whether appellee correctly withheld portions
of several intra-agency communications pursuant to FOIA Exemption 5. Because the
court has determined that summary disposition is not in order with respect to this issue,
the Clerk is instructed to calendar this case for presentation to a merits panel.
Pursuant to D.C. Circuit Rule 36, this disposition will not be published. The Clerk
is directed to withhold issuance of the mandate herein until resolution of the remainder
of this appeal.
Per Curiam

* Circuit Judge Henderson would grant the motion for summary affirmance in its
entirety.

Page 2

6

Case 1:17-cv-00160-TNM Document 28 Filed 07/17/18 Page 1 of 13

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
ASSASSINATION ARCHIVES AND
RESEARCH CENTER, INC.,
Plaintiff,
Case No. 1:17-cv-00160 (TNM)
v.
CENTRAL INTELLIGENCE AGENCY,
Defendant.
MEMORANDUM OPINION
The Assassination Archives and Research Center challenges the Central Intelligence
Agency’s response to its Freedom of Information Act (FOIA) request for all records related to
the CIA’s research into assassination attempts against Adolf Hitler, plus any records related to
the resulting search itself. After a search effort, the CIA found only one non-search-related
document, and concluded that any other pertinent documents had likely been given to the
National Archives. I conclude that the CIA has met its burden of showing that the search was
adequate and that its redactions were proper under FOIA. Accordingly, the CIA’s Motion for
Summary Judgment will be granted and Assassination Archives’ Motion for Summary Judgment
will be denied.
I. BACKGROUND
Invoking FOIA and the President John F. Kennedy Assassination Records Collection Act
of 1992 (JFK Records Act), 44 U.S.C. § 2107 note (1992), Assassination Archives seeks records
pertaining to the CIA’s research into plots to assassinate Adolf Hitler. Compl. ¶ 16. As part of
its original FOIA request, the Assassination Archives attached a 1963 memorandum
summarizing a Joint Chiefs of Staff briefing, which mentioned that “the plot to kill Hitler” was

7

Case 1:17-cv-00160-TNM Document 28 Filed 07/17/18 Page 2 of 13

“being studied in detail,” as a historical parallel to the CIA’s then-ongoing efforts to overthrow
Fidel Castro. ECF 1-1 at 7. The first request, sent in August 2012, asked for: (1) “all records on
or pertaining to the CIA’s 1963 study of plots to assassinate Adolf Hitler,” and (2) “all records
on or pertaining to communications by Allen Dulles regarding plots to assassinate Adol[f]
Hitler” during Dulles’s relevant periods of service in the Office of Strategic Services (a precursor
to the CIA), or the CIA itself. Compl. Ex. 1, ECF No. 1-1. After the CIA said that no responsive
records could be found, Assassination Archives sent an amended request in October 2012.
Compl. ¶ 16. That request sought:
(1) All records on or pertaining to any plot to assassinate Adolf
Hitler, including, but not limited to, all records in any way
reflecting or referencing the CIA’s study in 1963 of plots to
assassinate Hitler. . . .
(2) All records on or pertaining to communications by or with
Allen Dulles regarding plots to assassinate Adol[f] Hitler during
Dulles’s service in the Office of Policy Coordination (OPC), the
Office of Strategic Services (OSS), and the Central Intelligence
Agency (CIA).
(3) All index entries or other records reflecting the search for
records responsive to this request in its original or amended form,
including search times used with each of the components searched.
Compl. Ex. 2. Assassination Archives again told the CIA, on June 5, 2015, that a search had
revealed no responsive records. Compl. ¶ 18. But in November 2015, Assassination Archives
received a third response from the CIA stating that the letter was “sent . . . in error” and that the
FOIA request was still under review. Id.
After consulting with historical staff about where potentially responsive records might be
found, the CIA’s search eventually led to one responsive record: a 69-page Propagandist’s Guide
to Communist Dissensions from 1964 (Propagandist’s Guide). Pl.’s Mem. In Support of Pl.’s
Mot. Summ. J. (Pl.’s Mot. Summ. J.) 8. The CIA produced a redacted version of the

2

8

Case 1:17-cv-00160-TNM Document 28 Filed 07/17/18 Page 3 of 13

Propogandist’s Guide, and redacted versions of five internal communications related to the FOIA
search itself. Id. Both parties now seeks summary judgment, urging opposite conclusions as to
the adequacy of the CIA’s search, and the legality of its redactions.
II. LEGAL STANDARDS
To prevail on a motion for summary judgment, a movant must show that “there is no
genuine dispute as to any material fact and the movant is entitled to judgment as a matter of
law.” Fed. R. Civ. P. 56(a); see also Celotex Corp v. Catrett, 477 U.S. 317, 322 (1986). FOIA
requires federal agencies to “disclose information to the public upon reasonable request unless
the records at issue fall within specifically delineated exemptions.” Judicial Watch, Inc. v. FBI,
522 F.3d 364, 365-66 (D.C. Cir. 2008). Thus, a FOIA defendant is entitled to summary
judgment if it shows that there is no genuine dispute about whether “each document that falls
within the class requested either has been produced, is unidentifiable or is wholly exempt from
the Act’s inspection requirements.” See Weisberg v. Dep’t of Justice, 627 F.2d 365, 368 (D.C.
Cir. 1980). Courts decide the “vast majority” of FOIA cases on motions for summary judgment.
See Brayton v. Office of United States Trade Rep., 641 F.3d 521, 527 (D.C. Cir. 2011).
To show that any unproduced documents are unidentifiable, a defendant must show “a
good faith effort to [] search for the requested records, using methods which can be reasonably
expected to produce the information requested.” Oglesby v. Dep’t of the Army, 920 F.2d 57, 68
(D.C. Cir. 1990). In other words, the defendant must “demonstrate beyond material doubt that
its search was reasonably calculated to uncover all relevant documents.” Nation Magazine v.
Customs Serv., 71 F.3d 885, 890 (D.C. Cir. 1995). The touchstone of the analysis is the
reasonableness of the search, not the records produced. Mobley v. CIA, 806 F.3d 568, 583 (D.C.
Cir. 2015). An agency may exercise discretion in crafting its search to meet this standard, and

3

9

Case 1:17-cv-00160-TNM Document 28 Filed 07/17/18 Page 4 of 13

does not have to search every system if additional searches are unlikely to produce any marginal
return. See Campbell v. Dep’t of Justice, 164 F.3d 20, 28 (D.C. Cir. 1998). Searching for
records requires “both systemic and case-specific exercises of discretion and administrative
judgment and expertise,” and is “hardly an area in which the courts should attempt to micromanage the executive branch.” Schrecker v. Dep’t of Justice, 349 F.3d 657, 662 (D.C. Cir.
2003). To prove the reasonableness of its search, an agency can submit a “reasonably detailed
affidavit, setting forth the search terms and the type of search performed, and averring that all
files likely to contain responsive materials (if such records exist) were searched.” Oglesby, 920
F.2d at 68. Agency declarations enjoy “a presumption of good faith, which cannot be rebutted
by purely speculative claims about the existence and discoverability of other documents.”
SafeCard Servs. Inc. v. SEC, 926 F.2d 1197, 1201 (D.C. Cir. 1991).
To show that any unproduced documents are exempt from FOIA, an agency may file
“affidavits describing the material withheld and the manner in which it falls within the
exemption claimed.” King v. Dep’t of Justice, 830 F.2d 210, 217 (D.C. Cir. 1987). Courts
review the applicability of FOIA exemptions de novo but give “substantial weight to detailed
agency explanations” of national security concerns related to FOIA disclosures. Id.
III. ANALYSIS
A. The CIA Conducted an Adequate and Reasonable Search
The CIA relies on declarations by Antoinette B. Shiner to establish the adequacy of its
search. See Third Supp. Decl. of Antoinette B. Shiner at 2-4, ECF No. 25-1 (3d Supp. Shiner
Decl.); Second Supp. Decl. of Antoinette B. Shiner (2d Supp. Shiner Decl.), ECF No. 19-2. Ms.
Shiner describes the CIA’s exhaustive search in this manner:
[I]nformation management professionals (“IMS”) conducted
searches of the Directorate of Analysis (“DA“); Directorate of

4

10

Case 1:17-cv-00160-TNM Document 28 Filed 07/17/18 Page 5 of 13

Operations (“DO“), including its operational files; the Office of the
Director, the Director's Action Center, the Office of the General
Counsel, the Office of Congressional Affairs, the Center for the
Study of Intelligence (which is part of the CIA's Talent Center) and
the CIA’s history staff office. These directorates and offices were
selected on the basis that they would potentially contain the
historical studies and the documentary materials sought by
Plaintiffs. For each of these offices, IMS personnel identified the
specific database and files that would potentially contain the types
of records responsive to Plaintiffs’ request—i.e., the searches
included all relevant office databases, Agency share drives, and
archival records-for memoranda, correspondence and any other
records responsive to the request at issue. Keyword searches . . .
were targeted to retrieve records from each database and set of files
that contained those terms. In cases where records provided
references to additional responsive documents, IMS professionals
followed up on those leads and conducted additional searches based
on those terms or references. No other offices were deemed likely
to maintain responsive documents.
. . . Moreover, Agency personnel consulted with the CIA’s history
staff, who are very knowledgeable about the Agency’s holdings with
respect to the request’s subject matter. In fact, the Agency’s Chief
Historian was personally consulted. He advised on Agency-wide
searches and personally conducted searches of history staff files for
any reference to studies of anti-Hitler plots dating from the 1963
time frame, as referenced very briefly in the “JCS Memo” or
“Higgins Memorandum,” attached to Plaintiffs’ complaint and
opposition. The Chief Historian did not locate any additional
responsive records (apart from the one document that had already
been released to Plaintiffs) and opined that, due to the age of the
subject matter and narrow scope of Plaintiffs’ request focusing on
anti-Hitler plots, there would not be many responsive documents
and anything related to assassination studies would likely be found
at the National Archives. Indeed, IMS professionals noted that these
types of records have likely been accessioned to the National
Archives and Records Administration.
3d Supp. Shiner Decl. at 2-4.
Assassination Archives argues that the CIA did not conduct an adequate search because
the CIA should have found records that are connected to “known operations, events and
activities.” AARC’s Cross-Mot. 18. Since no records of a Hitler study have been found,

5

11

Case 1:17-cv-00160-TNM Document 28 Filed 07/17/18 Page 6 of 13

Assassination Archives contends that the CIA’s search efforts must have been inadequate. But
“the adequacy of a FOIA search is generally determined not by the fruits of the search, but by the
appropriateness of the methods used to carry out the search.” Iturralde v. Comptroller of
Currency, 315 F.3d 311, 315 (D.C. Cir. 2003). And mere speculation that efforts are
insufficient—without any meaningful indication of what else the CIA should have done1—fails
to rebut the presumption of good faith accorded to agency declarations. SafeCard Servs. Inc.,
926 F.2d at 1201. This is especially so when the documents sought are likely quite old and the
CIA’s Chief Historian indicates they would have been handed over to the National Archives. 3d
Supp. Shiner Decl. at 4. This explanation is entirely plausible on its face.
Next, Assassination Archives alleges that the CIA’s no-records letters qualify as
“troubling questions as to the conduct of the search.” Pl.’s Mot. Summ. J. 19-20. But the CIA
admitted that the two letters were sent by administrative error, CIA Reply 12, and the Plaintiff
argues that the errors raise “troubling questions” without even mentioning what those questions
might be. Pl.’s Mot. Summ. J. 20. The Plaintiff also contends that the CIA’s Chief Historian
should have himself submitted an affidavit, an “omission” that warrants a deposition by the
Assassination Archives. Pl.’s Reply 4. But it is not the duty of this Court to “micro-manage”

1

Assassination Archives suggested additional search terms in its opening brief, and was not
satisfied when the agency gave detailed examples of the search terms it had used. 3d. Supp.
Shiner Decl. at 4-5; Pl.’s Reply 7-8. But the CIA’s search terms are quite exhaustive, including
searches of many significant phrases (including “Hitler Assassination,” “1963 assassination
study,” and “Dulles files”), as well as those same words individually searched without quotes
(plot, Hitler, assassination, Dulles), a method calculated to “ensur[e] the broadest array of
responsive hits.” 3d. Supp. Shiner Decl. at 4-5. The Plaintiff’s suggestion that the CIA was
delinquent in failing to search phrases like “July 20 plot” and “plot to kill Hitler” ignores the fact
that those phrases would duplicate searches the CIA had already performed for “plot” and
“Hitler.” See Pl.’s Reply 7-8. And the remaining suggestions—such as “Joint Chiefs meeting
September 25, 1963,” and “Castro overthrow,” Pl.’s Reply 7—stray far afield, and into micromanagement of agency efforts.
6

12

Case 1:17-cv-00160-TNM Document 28 Filed 07/17/18 Page 7 of 13

search efforts (or litigation strategy), particularly when an agency has met its burden of
demonstrating a systematic good faith search effort. Schrecker, 349 F.3d at 662. No statutory
provision or court precedent requires affidavits from all government employees involved in the
search or dictates who among them should be the affiant. I conclude that the presumption of
agency good faith stands unrebutted, see SafeCard Servs. Inc., 926 F.2d at 1201, and that the
CIA has established the adequacy of its search beyond any genuine dispute.
B. The CIA Properly Applied FOIA Exemption 1
Exemption 1 applies when criteria laid out in an Executive order authorizes information
to be kept secret in the interest of national security, and the information is in fact properly
classified pursuant to such order. 5 U.S.C. § 552(b)(1); Military Audit Project v. Casey, 656
F.2d 724, 737 (D.C. Cir. 1981). The CIA utilized Exemption 1 to redact parts of the
Propagandist’s Guide containing information related to intelligence methods still in use, pursuant
to Section 1.4(c) of Executive Order 13526. 2d Supp. Shiner Decl. at ¶¶ 9-11. Executive Order
13526 authorizes original classification authorities to classify information that “could reasonably
be expected to cause identifiable or describable damage to the national security.” 75 Fed. Reg.
707, 709 (Dec. 29, 2009). Moreover, the classified information must “pertain[] to” one or more
items on an enumerated list, including “intelligence activities (including covert action),
intelligence sources or methods, or cryptology.” Id. at 709.
Assassination Archives contends that because the Propagandist’s Guide is more than 50
years old, the redacted information has been automatically declassified under Executive Order
13526. Pl.’s Mot. Summ. J. 26-27. But the Order’s 50-year declassification provision only
provides for automatic declassification “not later than 3 years from the effective date” of
December 29, 2009, if the relevant agency head has not, “[i]n extraordinary cases . . . within 5

7

13

Case 1:17-cv-00160-TNM Document 28 Filed 07/17/18 Page 8 of 13

years of the onset of automatic declassification, propose[d] to exempt additional specific
information from declassification.” See Executive Order 13526, Section 3.3(h)(2). Here, that
exact procedure has occurred. The CIA issued a CIA Declassification Guide on September 26,
2012 (less than three years after the relevant Executive Order), with an exemption for “sensitive
information that could reveal an intelligence method in active use.” 2d Supp. Shiner Decl. at 56. This Guide was issued under the authority of Director of the CIA, and approved by the
Interagency Security Classification Appeals Panel, as required by Executive Order 13526,
Section 3.3(j). Id. at 6 n. 1. Assassination Archives also alleges that the information should not
be classified because the title “Propagandist’s Guide” gives away the details of the redacted
information. Pl.’s Mot. Summ. J. 25, 31. But a mere title does not provide any insight into the
CIA’s specific methods. On this record, I find that the information that the CIA redacted from
the Guide—namely, information that might reveal an intelligence method still in active use—
remains properly classified under Exemption 1, and beyond the reach of FOIA.
C. The CIA Properly Applied FOIA Exemption 3
Exemption 3 applies to matters that are “specifically exempted from disclosure by
[another] statute” if that statute “requires that the matters be withheld from the public in such a
manner as to leave no discretion on the issue” or “establishes particular criteria for withholding
or refers to particular types of matters to be withheld.” 5 U.S.C. § 552(b)(3). Section 6 of the
Central Intelligence Agency Act (CIA Act) requires that the CIA protect from disclosure “the . . .
names, official titles . . . or numbers of personnel employed by the [CIA.]” 50 U.S.C. § 3507.
The National Security Act requires the Director of National Intelligence to “protect intelligence

8

14

Case 1:17-cv-00160-TNM Document 28 Filed 07/17/18 Page 9 of 13

sources and methods from unauthorized disclosure.” 50 U.S.C. § 3024(i)(1).2 The CIA invoked
the National Security Act as independent authority for redacting intelligence methods from the
Propagandist’s Guide, and invoked the CIA Act to withhold the names and phone numbers of the
CIA employees that conducted the search. 2d Supp. Shiner Decl. at 7-8.
Assassination Archives argues that the CIA should not have withheld employee names,
because the need to get to the bottom of the mistakes made during the FOIA search outweigh any
relevant privacy interests. Pl.’s Mot. Summ. J. 29. But Exemption 3 is not a balancing test.
Instead, “the sole issue for decision is the existence of a relevant statute and the inclusion of
withheld material within the statute’s coverage.” Morley, 508 F.3d at 1126. As mandated by
statute, the CIA properly used Exemption 3 to withhold the names and phone numbers of the
CIA employees who conducted the requested search. 2d Supp. Shiner Decl. 8; 50 U.S.C. § 3507.
Moreover, Assassination Archives challenges application of Exemption 3 to the
Propagandist’s Guide, because large portions of the guide are public and it is over 50 years old.
Pl.’s Mot. Summ. J. 28-29. But again, this claim is irrelevant to the legal issue. Even though
large portions of the guide are public, the CIA withheld specific information in order to “protect
intelligence sources and methods from unauthorized disclosure.” 50 U.S.C. § 3024(i)(1).
Nothing the Plaintiffs have argued undermines this material fact. Thus, the CIA properly applied
Exemption 3.

2

Agencies other than the National Security Agency may invoke this provision as grounds for
withholding information under Exemption 3. See Larson v. Dep’t of State, 565 F.3d 857, 865
(D.C. Cir. 2009) (accepting CIA invocation).

9

15

Case 1:17-cv-00160-TNM Document 28 Filed 07/17/18 Page 10 of 13

D. The CIA Properly Applied FOIA Exemption 5
The CIA also redacted parts of internal communications regarding the FOIA search
pursuant to FOIA Exemption 5 and the deliberative process privilege. Exemption 5 protects
from disclosure “inter-agency and intra-agency memorandums or letters which would not be
available by law.” U.S.C. § 552(b)(5). In other words, it covers records that would “normally
[be] privileged in the civil discovery context,” NLRB v. Sears, Roebuck & Co., 421 U.S. 132, 149
(1975), including the Executive Branch’s deliberative process privilege. Coastal States Gas
Corp. v. U.S. Dep’t of Energy, 617 F.2d 854, 862 (D.C. Cir. 1980). This privilege applies when
the relevant document is predecisional and deliberative, Access Reports v. Dep’t of Justice, 926
F.2d 1192, 1194 (D.C. Cir. 1991), because otherwise disclosure would undermine performance
by discouraging candid discussion. See Dudman Commc’ns Corp. v. Dep’t of Air Force, 815
F.2d 1565, 1568 (D.C. Cir. 1987). The privilege also applies when material is “inextricably
intertwined” with deliberative material. See FPL Group, Inc. v. IRS, 698 F.2d 66, 81 (D.D.C.
2010).
The CIA contends that it properly withheld communications between CIA staff that
would reveal how internal search methods were decided upon and conducted, as well as
materials inextricably intertwined with these communications. 2d. Supp. Shiner Decl. 8-9.
Assassination Archives makes the bald assertion, without a citation to the record, that the CIA’s
redactions “do not reflect a policy deliberation . . . rather they are factually based records as to
what was found or not found.” Pl.’s Mot. Summ. J. 31. This unsupported claim fails to rebut the
presumption of good faith that I must give to agency affidavits. SafeCard Servs. Inc., 926 F.2d
at 1201. I conclude that the CIA properly applied Exemption 5.

10

16

Case 1:17-cv-00160-TNM Document 28 Filed 07/17/18 Page 11 of 13

E. The CIA Properly Applied FOIA Exemption 6
An agency may use Exemption 6 to protect “personnel and medical files” and files that
would constitute a “clearly unwarranted invasion of personal privacy.” 5 U.S.C. § 552(b)(6). If
a privacy interest exists, the third party’s privacy interest is weighed against the public interest in
disclosure. See ACLU v. Dep’t of Justice, 655 F.3d 1, 6 (D.C. Cir. 2011). The CIA invokes this
exemption as an independent basis for withholding the names and phone numbers of agency
personnel. 3d Supp. Shiner Decl. at 8-9.
Assassination Archives alleges that Exemption 6 does not apply because disclosure of
CIA personnel names and telephone numbers are important for sniffing out why administrative
errors occurred in this case, and to vindicate the public interest in the John F. Kennedy
assassination. Pl.’s Mot. Summ. J. 31-33. But the connection between these records and
President Kennedy’s assassination are tenuous at best, resting on the Plaintiff’s theory that the
Kennedy assassination was motivated by U.S. efforts to assassinate Fidel Castro, efforts that
prompted the CIA to study assassination attempts on Adolf Hitler. So this case is two
assassinations removed from the assassination of President Kennedy. And even if I accepted the
Plaintiff’s proposition that public interest in the Kennedy assassination is relevant to this case,
and relevant to the CIA’s diligence during these search efforts, that interest does not outweigh
the privacy interests of CIA personnel in their names and phone numbers. The public’s interest
in figuring out why two “no-records” emails were mistakenly sent is miniscule at best. And the
fact that Congress has seen fit make the personal information of CIA staff members statutorily
inaccessible also demonstrates the public’s interest in CIA personnel avoiding personal scrutiny
for their public service. See 50 U.S.C. § 3507. Accordingly, I conclude that the CIA properly
applied Exemption 6.

11

17

Case 1:17-cv-00160-TNM Document 28 Filed 07/17/18 Page 12 of 13

F. President Trump’s Order Requires Nothing Further
Assassination Archives also claims that the CIA’s search efforts and redactions are
inconsistent with President Trump’s order regarding President Kennedy’s assassination records,
as recorded in a White House statement. That statement reads as follows:
STATEMENT BY THE PRESS SECRETARY ON THE
PRESIDENT JOHN F. KENNEDY ASSASSINATION
RECORDS
October 26, 2017
...
Today, President Donald J. Trump took action to ensure release of
the remaining President John F. Kennedy Assassination Records.
Accordingly, the National Archives and Records Administration
will make approximately 2,800 records available in full for public
access today. The remaining records will be released with agencyproposed redactions on a rolling basis in the coming weeks. The
President has demanded unprecedented transparency from the
agencies and directed them to minimize redactions without delay.
The National Archives will therefore release more records, with
redactions only in the rarest of circumstances, by the deadline of
April 26, 2018.
2017 WL 4857002 (White House). The Plaintiff argues that this statement gives added “weight
to the public interests at issue in this case,” and contends that the CIA has failed to comply with
President Trump’s orders. Pl.’s Mot. Summ. J. 23, 27-28, 30, 33. But this argument fails to
comprehend the limited scope of President Trump’s order, and the CIA’s support for its redactions
in this case.
Put simply, President Trump ordered that President Kennedy’s assassination records be
released swiftly, “with redactions only in the rarest of circumstances.” 2017 WL 4857002. As
explained above, the records at issue in this case are only tenuously related to President Kennedy’s
assassination. Supra n. 11. President Kennedy’s assassination records are held by National
Archives, not by the CIA, and so the President’s order does not even apply to this case. See 44

12

18

Case 1:17-cv-00160-TNM Document 28 Filed 07/17/18 Page 13 of 13

19

USCA Case #18-5280

Document #1819564

Filed: 12/10/2019

Page 1 of 1

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 18-5280

September Term, 2019
1:17-cv-00160-TNM-GMH
Filed On: December 10, 2019

Assassination Archives and Research Center,
Appellant
v.
Central Intelligence Agency,
Appellee

BEFORE:

Garland, Chief Judge; Henderson, Rogers, Tatel, Griffith,
Srinivasan, Millett, Pillard, Wilkins, Katsas, and Rao, Circuit Judges;
Williams, Senior Circuit Judge
ORDER

Upon consideration of appellant’s petition for rehearing en banc, and the
absence of a request by any member of the court for a vote, it is
ORDERED that the petition be denied.
Per Curiam

BY:

FOR THE COURT:
Mark J. Langer, Clerk
/s/
Michael C. McGrail
Deputy Clerk

20

USCA Case #18-5280

Document #1819565

Filed: 12/10/2019

Page 1 of 1

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 18-5280

September Term, 2019
1:17-cv-00160-TNM-GMH
Filed On: December 10, 2019

Assassination Archives and Research Center,
Appellant
v.
Central Intelligence Agency,
Appellee

BEFORE:

Pillard and Rao, Circuit Judges; Williams, Senior Circuit Judge

ORDER
Upon consideration of appellant’s petition for panel rehearing filed on November
25, 2019, it is
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Michael C. McGrail
Deputy Clerk

21

